rj

DR'6 H-A*Supreme Court, U.S.
FILED

JUL 0 2 2021

NO:

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
Sandra Harmon- Petitioner
VS.
Dept, of Finance Sussex County, Delaware et. al.- Respondents

f

ON PETITION FOR A WRIT OF CERTIORARI
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Dated: July 2, 2021

^andra Harmon
"815 F Street
Hartsville, SC 29550
302-245-0299

Page 1 of9

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS RETOW

US Court of Appeals for the Third Circuit No: 0;21-cv-01317. Sandra Harmon v. Dept, of Fi­
nance et. al., judgment entered June 9, 2021.

US District Court for the District of Delaware No. 1-18-cv -01021. Sandra Harmon v. Dept, of
Finance et. al., judgment entered 2/02/21.

US Court of Appeals for the Third Circuit No: 19 cv 03191. Sandra Harmon v. Dept, of Finance
et. al., judgment certified 06/4/2020.

US Court of Appeals for the Third Circuit No: 19 cv 03191. Sandra Harmon v. Dept, of Finance
et. al., judgment entered 4/27/2020.

US District Court for the District of Delaware No. 1-18-cv -01021. Sandra Harmon v. Dept, of
Finance et. al., judgment entered 8/19/2019.

QUESTIONS PRESENTED
WHETHER THE THIRD CIRCUIT COURT CAN CREATE A REASON UNSUPPORTED BY
THE DISTRICT COURT JUDGE THAT THE DOCKET WAS MISTAKENLY MARKED
CLOSED AND RULE ADMINISTRATIVE CLOSURE FOR THE PURPOSE OF DISRE­
GARDING PETITIONER-APPELLATE TIMELY FILED NOTICE OF APPEAL, WHEN THE
DISTRICT COURT NEVER ISSUED A RULING NOR NOTICE TO THE PARTIES THAT
THE CASE WAS MISTAKENLY CLOSED OR AN ADMINISTRATIVE ERROR OCCUR­
RED- THERE WAS NO EXPLANATION OF THE ALLEGED ERROR- ONLY NOTICE ON
THE DOCKET THAT OPPOSING COUNSEL FILED A MOTION FEB. 16, 2021 AND

Page 2 of 9

WANTED THE COURT TO REOPEN CASE FOR OPPOSING TOT IN SIFT ,’S PERSQNALAD.
VANTAGE?'
WHETHER THE THIRD CIRCUIT COURT CAN REFUSE JURISDICTION OVER A FINAL
DECISION OF A DISTRICT COURT ORDER WHOSE PRACTICAL CONSEQUENCE OF
THE ORDER EFFECTIVELY TERMINATED THE CASE AND PUT ME THE APPELLANT
OUT OF COURT?
WHETHER JUDGES WITHWHOM JUDICIAL MISCONDUCT COMPLAINTS HAVE BEEN
LEVIED AGAINST AND REMAIN PENDING BY THE JUDICIAL COUNCIL , BY THE PE­
TITIONER/ APPELLANT IN A RELATED CASE, FOR PRIOR UNETHICAL AND PARTIAL
CONDUCT THAT VIOLATES THE CANON’S OF JUDICIAL ETHICS BY THE PANEL OF
JUDGES BE ALLOWED TO MAKE A RULING IN THIS CASE FOR WHICH OBJECTIVI­
TY WAS ABSENT AND DISREGARDED?
PARTIES TO THE PROCEEDING
Petitioner is SANDRA HARMON.

Respondents are
DEPARTMENT OF FINANCE OF SUSSEX COUNTY;
JASON ADKINS, individually and in his capacity as defense counsel for Sussex County Administra­
tion;
SUSSEX COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS;
DALE CALLAWAY, Chairman individually and in his capacity as Chairman;
ELLEN MAGEE, individually and in her capacity as board member;
J. BRUCE MEARS, individually and in his capacity as a board member;
JOHN MILLS, individually and in his capacity as a board member;
E. BRENT WORKMAN, individually and in his capacity as a board member; AND
SUSSEX COUNTY ADMINISTRATION

JURISDICTION

The Third Circuit entered its decision on June 9, 2021. This Court has jurisdiction under
28 USC 1254(1) to review the Third Circuit’s decision on a writ of certiorari.

STATUTORY PROVISION AT ISSUE

28 USC 1291 provides, in relevant part: “The court of appeals....shall have jurisdiction
of appeals from all final decisions of the district courts of the United States,...”

Page 3 of 9

STATEMENT OF THF. EASE

The Third Circuit Appeals Court panel erred when it concluded that it did not have juris­
diction over the final order of the district court in this case, and that the docket was mistakenly
marked closed.

Also, Third Circuit erred when it acted as a witness for the District Court stating that
.Harmon argues that the District Court’s February 2, 2021 order was final, because the docket was mistakenly
marked “closed” afterward. But “an administrative closure ... has no jurisdictional significance” and “does not re­
sult in a final order,” when the district court never issued an order nor notice ruling or declaring that
\

the case was terminated and closed in error to the Petitioner/ Appellant below-complainant , nor
the respondent as noted by the district court’s own docket, prior to and after Petitioner- Appellant
below filed her timely notice of appeal to the Third Circuit Court of Appeals. The only order is­
sued by the district court was the order filed on February 2, 2021. The district court again never
notified the parties that it nor its clerks made a mistake in closing the case. Opposing counsel
never argued the point of an administrative error or a mistakenly closed case, It’s unknown how
the Third Circuit concluded that the docket was mistakenly marked closed or that an administra­
tive closuure error occurred, when neither of the parties to the case presented this information as
an argument to the Third Circuit, and the District Court Judge never sent out notice to the parties
nor issued any type of order to support the findings derived at by the Third Circuit Court Panel.
It appears as if misconduct is continuing, and Judges are not suppose to act as witnesses provid­
ing testimony that’s unknown to both parties and the district court Judge as well.

Again, the district court never issued notice nor and order informing the parties that the
case was mistakenly marked closed, nor addressed the issue of an administrative closure in this
case. The docket shows only that counsel for defense on February 16, 2021 filed a Motion to
Dismiss, and it appears from the docket entries, that the district court judge re-opened the case to
allow counsel for the defense to file a Motion to Dismiss, conduct that took place well after I, Pe­
titioner-Appellant below filed my notice of appeal of the district’s court final order that put me
the appellant out of court on February 3, 2021.

Page 4 of 9

There was no administrative error, nor a mistakenly marked closed, as the district judge
had entered his opinion and issued his final order in the case, marked the case closed and termi­
nated the proceedings in the case, effectively ending litigation, and putting me the Petitioner- Ap­
pellant below out of court. The sole purpose of reopening the case was to allow for counsel for
the defense to attack the issues I, Petitioner- Appellant below raised in my appellate paperwork
sent in along with my notice of appeal in this case to the Third Circuit Court.

It’s the Third Circuit Panel of Judges that issued this ruling, for which me the PetitionerAppellant below levied a Complaint of Judicial Misconduct against for their misconduct in relat­
ed case 19-cv 3263, that have engaged in further misconduct by refusing to recuse themselves as
requested by the Petitioner, Appellant below that is engaging in further misconduct against the
Petitioner- Appellant below in this case by acting as witnesses and providing reasoning for the
district court conduct that the district court judge himself did not notify the Petitioner- Appellant
below that the docket was mistakenly marked closed.

The docket is without dispute that the counsel for the defense/ appellee below based on
the reason included on my informa pauperis papers for my appeal- that the appellees counsel in
conjunction with the district court judge reopened the case on the 16th of February 2021, well af­
ter my appeal was filed with the Third Circuit Court, to provide for the appellee’s counsel to ad­
dress issues noted in the paperwork I filed along with my Notice of Appeal where I attached a
copy of the completed state court docket, that was intentionally mischaracterized as pending and
awaiting resolution by the district court engaging in continuous misconduct.
This conduct in no way accounts for nor should the court allow for such conduct to be
called an administrative error to allow for. the filing by the Counsel for the defense to challenge
information Appellant included with my Petitioner/ Appellant below Notice of Appeal to the
Third Circuit, well after the appeal was timely filed with the court.

The district court February 2, 2021 filed order effectively terminated litigation and pre­
cluded Plaintifl-below/ Appellant from presenting a possibly meritorious and complete defense in
the Civil Action, it clearly ended the litigation, and put Plaintiff- Below/ Appellant "out of court,"
it is a final and appealable order. It was not an administrative error, and the district court never

Page 5 of 9

notified me the Petitioner/ Appellant that an administrative error was made. (See Appellant Ex­
hibit 1 - District Court Notice of Case Closed and a copy of the district court docket) The Third
Circuit Court refusal to accept jurisdiction has allowed the appellees-defendants to bring up new
issues derived from issues which 1 raised in my Appeal and Opening Brief (See attached exhibit
4 w/ appendix) submitted to the Third Circuit Court in support of my appeal in 21 cv 01317,
when the Third Circuit had already issued a finding of fact in its decision that was remanded to
the district court dated 4/27/2020 in this case. The case is an unending saga in which the Court
has engaged in partial conduct and worked relentlessly to aid counsel for defense/ appellees in
their wrong doings/ illegal conduct in this case.

On February 3, 2021,1, Petitioner, Appellant below immediately placed my Notice of Ap­
peal, Informa Pauperis Papers, and Request for Appointment of Counsel detailing the reason for
my appeal and attaching a copy of the completely adjudicated state court docket in state case
C.A. S18 T-01-002 that the district court Judge judicially noticed. I sent the mail priority with
delivery confirmation along with signature confirmation to the Court Third Circuit Court of Ap­
peals, along with copies of the Document to the US District Court and to the counsel for the de­
fendants.
After USPS noted that the documents were delivered on February 8, 2021,1 made multi­
ple calls thereafter notifying the courts that my appeal papers have yet to be placed on the dock­
et, so that I can view them in the PACER system. Each time I was informed that my appeals pa­
pers were not yet received by the courts.

On or about the 18th of February 2021, an appellate clerk ask that I provide her a copy of
the USPS documents that noted they received my documents along with a copy of the documents
I sent to the courts. At which time, the clerk was able to locate my documents that were sent to
the court. She noted she can’t explain why the documents were not filed on the docket.

This clerk then notified via a letter (See Exhibit No. 2) to the US District Court, who had
a copy of the same documents but claimed they did not receive the documents as well, that my
appeal was to be docketed as received on February 9, 2021.

Page 6 of 9

______ On the date that I sent my appeal on February 3, 2021, the day they marked as receiving
the appeal on February 9, 2021, The order issued by the district court effectively put me out of
court. The district court docket noted that the case was terminated and closed. The State court
action was completely adjudicated and closed, as noted by the docket entries (see Exhibit No. 3).
Had an appeal not been taking, there would be no more said about the case because it was termi­
nated & closed as noted by Exhibit No. 1.

The district court order was final by all practical effects, the order effectively precluded
proof at trial of what might possibly be a complete defense to the cause sued upon. The order put
me, the Plaintiff-Below/ Apellanf out of court.' It is, therefore, an appealable order. See Cohen v.
Beneficial Industrial Loan Corp. [supra] and Bell v. Benefic. Consumer Corp., 465 Pa. 225, 348
A.2d 734 (1975). (See Appellant Exhibit 1- District Court Notice of Case Closed)

My appeal to the Third Circuit Court involved me the Petitioner- Plaintiff- Below- Appel­
lant attempt to find a federal forum to resolve the issues raised in my complaint and pleadings to
the court, so that I, Plaintiff- Below- Appellant can obtain a final judgment on the merits of my
claims, obtain a monetary award for the conduct engaged in by the defendants against me, as
well as an award of punitive damages for the delay injustice resulting from the defendants inten­
tionally misleading the court - causing a delay injustice, and intentional infliction of emotional
distress on me, the Plaintiff- Below- Appellant and my family for several years now. Appellant
appeal also involve Appellant engaging in a long rigorous battle to have my private property
rights protected and preserved against the fraudulent, heinous, shocking, malicious, and uncon­
scionable acts of the defendants-below/ appellees in this case.

The case involves the unlawful taken of my Plaintiff- Below- Appellant private property (Real
Estate) by the defendants below/ appellees using fraud and deceit, putting forth false and mis
leading information to the tribunal, in violation of my 14th Amendment Constitutional Rights as
guaranteed by the United States Constitution, and the district court terminating the case, without
hearing the merits of my claims, judicially noticing and deferring judgment to the State Court
case in which the litigation was completed C.A. SI 8 T-01-002, despite having jurisdiction for
hearing constitutional claims, for Summary Judgment, and closing of the case on the docket, left

Page 7 of 9

no other action pending before any court. The action taken by the Judge ended the litigation and
effectively put the Plaintiff below/ Appellant out of court.

The effect of the district court’s action in the case deprived me, the Plaintiff- Below/ Appel­
lant of not just a federal forum, but any forum for the resolution of the issues raised in my com­
plaint to the district court in which my constitutional rights were violated by the Defendants-Below- Appellees.

There can be no question that the district court’s February 2, 2021 order effectively put .
Plaintiff-Below out of court, and it was not mistakenly nor in error entered, as the district court
never issued an order nor notice that the case was close in error, as there was nothing left to re­
solve from the district court’s opinion and order issued in the case. There is no premature nor
pending litigation in state nor the district court in this case. Petitioner- Appellant in this case was
put out of court, and the case was terminated and closed.

WHEREFORE the Third Circuit panel erred when it concluded it did not have jurisdic­
tion of the final order issued by the district court in this case, and that the district court order was
an administrative error when the district court itself never confirmed nor notified the parties to
the litigation that the case was closed in error.. Petitioner respectfully requests for a writ of cer­
tiorari be granted in this case.

REASONS FOR GRANTING THE WRTT

1. The Court should grant certiorari and clarify that when the practical consequence of the dis­
trict court order effectively put a litigant out of court, the order is treated as final.
2. Likewise, when the court should grant certiorai and clarify that when the order ends the litiga­
tion or alternatively, disposes of the entire case, and put the litigant out of court the order is final.
3. The Court should Grant certiorari and clarify to the Court that the Court cannot claim without
notice to the parties an administrative error or mistaken closure of a case, nor misrepresent or
create an administrative error without notice to the parties and only for the sole purpose of allow­
ing a party to the case an advantage to attack reasons noted on paperwork submitted along with a

Page 8 of 9

timely Notice of Appeal of another party, as the court did in this case.

CONCLUSION
For the above stated reasons, the petition for a writ of certiorari should be granted.
Respectfully submitted.

Dated: 7/2/2021
Sandra Harmon

CERTIFICATE OF SERVICE
I, Plaintiff below/ Appellant Sandra Harmon certify that a true and correct copy of my,
Petitioner- Plaintiff below/ Appellant PETITION FOR WRIT OF CERTIORARI was mailed US
Mail prepaid postage to the following counsel for the Defendant below/ Appellee’s on 7/2/2021.
Walter Kawalec III
15000 Midlantic Drive
Ste. 200
PO Box 5429
Mt. Laurel, NJ 08054

sandra Harmon
815 F Street
Hartsville, SC 29550
soharal 966@aol.com
302-245-0299

Page 9 of 9

